<html>
<title> - SENIORS GOING HUNGRY IN AMERICA: A CALL TO ACTION AND WARNING FOR THE FUTURE</title>
<body><pre>[Senate Hearing 110-597]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-597
 
 SENIORS GOING HUNGRY IN AMERICA: A CALL TO ACTION AND WARNING FOR THE 
                                 FUTURE

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             MARCH 5, 2008

                               __________

                           Serial No. 110-23

         Printed for the use of the Special Committee on Aging



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-090 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



























                       SPECIAL COMMITTEE ON AGING

                     HERB KOHL, Wisconsin, Chairman
RON WYDEN, Oregon                    GORDON H. SMITH, Oregon
BLANCHE L. LINCOLN, Arkansas         RICHARD SHELBY, Alabama
EVAN BAYH, Indiana                   SUSAN COLLINS, Maine
THOMAS R. CARPER, Delaware           MEL MARTINEZ, Florida
BILL NELSON, Florida                 LARRY E. CRAIG, Idaho
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
KEN SALAZAR, Colorado                NORM COLEMAN, Minnesota
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           BOB CORKER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     ARLEN SPECTER, Pennsylvania
                 Debra Whitman, Majority Staff Director
            Catherine Finley, Ranking Member Staff Director

                                  (ii)

  


























                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Gordon Smith........................     1
Opening Statement of Senator Ron Wyden...........................     3
Opening Statement of Senator Elizabeth Dole......................     4
Opening Statement of Senator Ken Salazar.........................     5
Opening Statement of Senator Claire McCaskill....................    91

                                Panel I

Edwin Walker, deputy assistant secretary, Administration on 
  Aging, U.S. Department of Health and Human Services, 
  Washington, DC.................................................     7
Kate Hudson, deputy under secretary, Food Nutrition and Consumer 
  Services, U.S. Department of Agriculture, Washington, DC.......    21

                                Panel II

Marcus Lampros, president, Lampros Steel, Inc., Portland, OR.....    46
James Ziliak, director, Center for Poverty Research, Department 
  of Economics, University of Kentucky, Lexington, KY............    50
James Weill, president, Food Research and Action Center, 
  Washington, DC.................................................    63
Robert Blancato, executive director, National Association of 
  Nutrition and Aging Services Programs, Washington, DC..........    73
Jan Jones, senior vice president, Communications and Government 
  Relations, Harrah's Entertainment, Inc., Las Vegas, NV.........    82

                                APPENDIX

Statement by Stacy Dean, director of Food Assistance Policy, 
  Center on Budget and Policy Priorities.........................    99
Information booklet on the Causes, Consequences, and Future of 
  Senior Hunger in America by James P. Ziliak, Craig Gunderson, 
  and Margaret Haist.............................................   104

                                 (iii)

  


 SENIORS GOING HUNGRY IN AMERICA: A CALL TO ACTION AND WARNING FOR THE 
                                 FUTURE

                              ----------                              --



                        WEDNESDAY, MARCH 5, 2008

                              United States Senate,
                                Special Committee on Aging,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:34 a.m., in 
Room SD-562, Dirksen Senate Office Building, Hon. Gordon H. 
Smith, Ranking Member, presiding.
    Present: Senators Wyden, Salazar, McCaskill, Smith, and 
Dole.

  OPENING STATEMENT OF SENATOR GORDON H. SMITH, RANKING MEMBER

    Senator Smith. Good morning, ladies and gentlemen, we thank 
you all for being here. I want you to know that this Committee 
has a very special tradition of working in a bipartisan way, 
and Senator Kohl and I have long had that kind of relation.
    So with his permission, we will proceed and then welcome 
some more of my colleagues. My colleague, Senator Wyden and the 
gentleman from Colorado, we welcome you as well, Senator Dole.
    I want to extend also a personal welcome to Mr. Marcus 
Lampros, who will testify about the wonderful volunteer work 
that he does on behalf of the Loaves and Fishes Centers in my 
home State of Oregon. I look forward to hearing Mr. Lampros' 
testimony later this morning.
    Bottom line, ladies and gentlemen, food is the most basic 
of human building blocks. You can't have sustained life without 
it. Yet in this country, millions of Americans do go hungry. As 
hard as that may sound to some ears, it is in fact the truth.
    In fact, more than 35 million Americans are food insecure, 
meaning their access to food is limited by a lack of money and 
a lack of resources. They are some of our most vulnerable 
citizens, and many of them are seniors. Hence, the focus of 
this Committee.
    In my home State of Oregon, hunger affects many seniors. 
Although the trend of hunger is improving in my State, there 
remain far too many who are on the brink of hunger or are 
receiving inadequate aid.
    However, even with recent improvements in outreach and 
increased enrollment in programs to combat hunger, more than 
one in 10 Oregonians experience difficulty in purchasing food 
each year.
    The problem of hunger in our Nation is one that I have long 
been concerned about and one that has led me, along with 
Senator Dole and Senator Lincoln, to Chair the Senate Hunger 
Caucus. I look forward to working again with these, my 
colleagues that I have mentioned, to ensure that seniors have 
better availability to the nutrition programs in the Older 
Americans Act.
    Senator Lincoln and I and Senator Dole and others will work 
with the appropriators to raise funding levels for the 
congregate and home delivered meals that we will be talking 
about today.
    We were successful in seeing a small increase in funding 
for these programs last year, but after many years of stagnant 
funding, there is much more that needs to be done.
    I also want to thank the Meals on Wheels Association of 
America. This foundation does remarkable work that they have 
been doing to gather the funding and research to create the 
great report they are releasing today.
    This report will help me and my colleagues to finally have 
a much better understanding of the specific causes, impacts and 
future trends of senior hunger in America. As the report 
mentions, since 2000, more than 11 percent, or roughly 5 
million seniors, have experienced some form of food insecurity, 
with more than 750,000 persons actually suffering from hunger 
due to financial constraints.
    We will learn today that there are certain risk factors for 
food insecurity, such as living with a grandchild, never 
married individuals, social isolation and persons who rent 
their housing. Surprising, seniors who are the on younger age 
range, between ages 60 and 64, are more likely than those who 
are 80 years and older to suffer from food insecurity.
    Unfortunately, we know that while there are programs 
available to seniors, they are not always utilized. For 
instance, only a small percentage of seniors who are eligible 
for food stamps actually for and receive them.
    The U.S. Department of Agriculture has done work to 
increase these numbers, and I look forward to hearing more from 
them today on their efforts. Taken as a whole, the statistics I 
have discussed this morning are staggering and they show us 
that more must be done.
    The health consequences from lack of access to this most 
basic need are grave. Most importantly, they are preventable. 
Unfortunately, without change, we can expect this problem only 
to worsen.
    As we will learn more about today the number of seniors 
expected to be food insecure by 2025 is estimated to be 9.5 
million seniors, which is about 75 percent higher than the 2005 
estimates.
    However, I believe we won't have to wait that long to 
notice that hunger will quickly become an even greater problem 
in our Nation. So that with rising prices of grain, corn and 
gas, in the U.S. prices for food are also on the rise.
    These rising prices make the balance of life that much more 
difficult and fragile for those seniors who want to stay in 
their homes and communities as they age.
    Our own U.S. Capitol is adorned with displays and images of 
fields of plenty, of harvests of wheat. This remains a Nation 
of bounty, and we must ensure that our hungry seniors can and 
do have access to the food and nutrition programs available to 
them.
    Again, I look forward to learning more from our panelists 
about these issues and what options we as a government have in 
order to turn the current trend around. We must continue to 
work together to ensure our most vulnerable citizens are lifted 
from the threat of hunger and are able to thrive as healthy 
individuals.
    I believe Senator Kohl will be joining us later, and so 
with the permission of my colleagues, why don't we go Democrat, 
Republican, and Democrat. Senator Wyden.

             OPENING STATEMENT OF SENATOR RON WYDEN

    Senator Wyden. Thank you, Mr. Chairman, and congratulations 
to you and Senator Kohl for scheduling this important hearing 
and all the advocacy that you are doing for this particular 
issue.
    It is my view that it is a moral blot on our country, a 
Nation so strong and good and wealthy, that we have so many 
older people going to bed at night hungry. Back in my youth, 
when I was co-director of the Oregon Gray Panthers, I served on 
the board of Loaves and Fishes, and I am very pleased that 
Senator Smith has invited Marcus Lampros to be here.
    The Lampros family in Portland is involved in just about 
every good cause in our community, and we are very pleased that 
they are here.
    The fact of the matter is, that this program is enormously 
important as it relates to nutrition, but also extremely 
important as it relates to the socialization needs of older 
people as well.
    I was struck this past winter when my wife Nancy and I 
delivered meals for Loaves and Fishes. We got a chance to talk 
to a lot of the folks who get the meals that Loaves and Fishes 
delivers. The programs that we are going to hear about today 
very often are the only visitors that a lot of older people 
have, particularly on a holiday.
    That was the case this year when Nancy and I visited. We 
were the only persons who were going to be in contact with 
these older people. So the point made by Senator Smith today 
about the benefits of these programs as they relate to hunger 
is absolutely right. But it is also clear that these programs 
perform a great need in terms of keeping older people connected 
to the community.
    The only other point I want to mention is my sense that 
these programs are also vitally needed to prevent older people 
from eventually needing institutional care. Because just as 
sure as the night follows the day, if you don't have adequate 
nutrition, along with heat and other essentials, you are going 
to get sick.
    So what we have is an opportunity here with a modest amount 
of help in areas like nutrition to keep older people from 
needlessly having to go into institutional facilities where 
there are a lot less happy, and it is much more expensive for 
the taxpayers.
    So this is a cause that is morally right, but I would also 
offer up the judgment that it is economically right as well. So 
we congratulate all of our witnesses, particularly pleased to 
have Oregonians here, and look forward to working with you, 
Senator Smith, Senator Dole and Senator Salazar on this issue.
    If ever there was a bipartisan cause in America, rooting 
out hunger among our seniors is it. So I look forward to 
working with our colleagues.
    Senator Smith. Thank you, Senator Wyden. Senator Dole.

          OPENING STATEMENT OF SENATOR ELIZABETH DOLE

    Senator Dole. Thank you so much, Senator Smith, for holding 
this hearing today. This takes me back to my days when I was 
assistant to the president for consumer affairs years and years 
ago, and this was one of the issues that we were terribly 
concerned about then.
    When I came to the Senate, my maiden speech was on this 
very issue, the problem of hunger in the United States and 
around he world. I often paraphrased David Broder of the 
Washington Post, because I think what he said is so 
appropriate.
    Some issues just seem impossible to resolve, but this is 
not one of them. All we need is caring people and a caring 
government, and we can eliminate hunger in our lifetime.
    So joining the Hunger Caucus, helping to set that up has 
certainly been a privilege for me and this remains a top 
priority. I want to thank Meals on Wheels Association of 
America for your passion, your commitment to feeding our 
seniors. You are indeed doing the Lord's work.
    It has been a privilege to visit a number of your 
organizations in North Carolina and to see the good work that 
you folks are doing. In addition, I want to thank all of those 
who will be testifying.
    In America, the land of prosperity and plenty, as my 
colleagues have mentioned, some people have the misconception 
that hunger plagues only far away, undeveloped nations. The 
reality is that hunger is a silent enemy lurking within one in 
10 U.S. households.
    In fact, in North Carolina alone, nearly 1 million of our 
8.8 million residents are struggling with food insecurity 
issues. So again, one of my top priorities is addressing this 
far too prevalent problem that affects people of all ages and 
certainly including our seniors.
    Millions of seniors are living on fixed incomes, as we have 
already heard. They don't have the means to purchase nutritious 
foods and other basic necessities. They have no choice but to 
buy what they can afford. Far too often, these are unhealthy 
choices. It is a sad fact that many of our senior citizens slip 
through the cracks with their nutritional needs going unmet and 
unnoticed.
    I am very pleased that the proposed versions of the Farm 
Bill includes strong nutrition titles that go to great lengths 
to address hunger in America. In particular, I am encouraged to 
see the inclusion of funding for the Senior Farmers Market 
Nutrition Program that enables seniors to purchase fruits, 
vegetables and other nutritious foods at farmers markets.
    I also welcome significant increase in funding for the 
Emergency Food Assistance Program, which benefits food banks 
the provide critical nutritional assistance to many 
disadvantaged Americans, and proposed changes to the 
Commodities Supplemental Food Program, again, which provides 
nutritious USDA commodity foods for the elderly and other 
vulnerable populations.
    Of course, caring for seniors and other needy citizens 
should not fall solely on the shoulders of the Federal 
Government. Instead, we welcome and encourage public/private 
partnerships through programs such as Meals on Wheels and 
numerous food banks across the United States.
    In North Carolina, I visited a number of our food 
assistance organizations around the State, and I am always 
impressed with the mission feel that they are on, the 
tremendous job they do to meet the needs of our less fortunate 
citizens.
    One area I have been focused on is promoting food donations 
and incentivizing volunteers to participate in these charitable 
and necessary ventures. In fact, my food donation amendment was 
included in the Farm Bill that addresses four tax issues that 
will encourage food donations and volunteering to help the 
hungry.
    For example, the amendment allows volunteers to receive a 
tax deduction for mileage incurred while transporting food 
donations. As a former president of the American Red Cross, I 
know firsthand the importance of volunteers. There would be no 
Red Cross without the 1.3 million volunteers, and I understand 
that many charities like Meals on Wheels depend on volunteers 
using their personal vehicles to deliver food to countless 
tables across the country.
    In addition, volunteers who glean and transport food could 
benefit from this tax deduction measure. Excess crops that 
would otherwise be plowed under or thrown out are taken from 
farms and other entities and distributed to the needy.
    Each year in this country, 96 billion pounds of good, 
nutritious food is left over or thrown away. Gleaning helps 
eliminate this waste.
    I have gleaned with a number of organizations, and really 
most recently with the Society of St. Andrew in Harnett County, 
gleaning sweet potatoes back on October. It is a great thing to 
do.
    So again, thank you, Senator Smith, for holding this 
hearing. I look forward to working with my colleagues to fight 
the battle against hunger. I feel fervently about this and 
regard you as partners and look forward to working with you.
    It is a campaign, as I have said, that can't be won in 
months or even a few years. But with a caring government and a 
caring people working together, ending hunger in America is 
certainly a victory within reach.
    Thank you very much, Mr. Chairman.
    Senator Smith. Thank you. Senator Salazar.

            OPENING STATEMENT OF SENATOR KEN SALAZAR

    Senator Salazar. Thank you very much, Senator Smith, and I 
also want to thank Chairman Kohl for putting a focus on this 
issue, which is so important from my point of view.
    Having worked as attorney general for my State for 6 years, 
I try to put a focus on issues relating to the elderly. I 
always felt that the principal value that impelled me to do my 
work as attorney general, protecting our seniors, had to do 
with respecting our elders.
    I think that the respect for elders is an American value 
that is timely and priceless and transcends generations. I know 
that in my State, we have about 700,000 elder Americans. I also 
know that many of those 700,000 people are not well 
nutritioned.
    We have, based on a 2005 study which was conducted by the 
Department of Health and Human Services, a finding that 56,857 
of them are not able to eat two or more complete meals a day. 
So that is about 10 percent of the senior population in my 
State that doesn't have the food security that I believe that 
they should have.
    In that same survey, it was found that there were 50,000 
Coloradoans who had lost 10 or more pounds in the past 6 months 
without meaning to lose those pounds, and it had to do with the 
fact that they were not getting the amount of food that they 
should have had.
    So it is an issue which is very much an issue of concern in 
my State of Colorado, and also those statistics, I think, can 
be well extrapolated around the country.
    I would make two comments on things that I believe that we 
should do, and Ms. Houston and Mr. Walker, I think these are 
comments related to what I consider to be the Administration's 
lack of urgency with respect to acting upon these issues in a 
clear, effective and immediate way.
    The first has had to do with our own efforts here in the 
U.S. Senate to try to include funding for food stamps programs, 
as we have moved forward with the economic stimulus package for 
the country. We attempted to do that in the U.S. Senate, the 
Administration pushed back very hard.
    We knew that from an economic stimulus point of view, it 
made sense for us to invest more in food stamps. Certainly from 
a moral point of view in terms of the people that it helps, it 
would have also helped the senior populations of America, and 
that would something that I hope would have been endorsed by 
the Administration.
    Second, the 2007 Farm Bill, which Senator Dole spoke 
glowingly about in terms of the nutrition programs that are 
included in there, from my point of view--and I have a sign on 
my desk that says ``no farms, no food.'' I think it is a 
travesty and a shame that frankly we have not been able to get 
the Farm Bill across the finish line, in large part because of 
the opposition of the Administration.
    When you look at the 67 percent of the money that is 
included in that Farm Bill over the next 5 years that goes to 
nutrition, the very essence of what we are talking about here 
with respect to food security and elder Americans, it is tied 
up in the language and the programs that would move many of the 
nutritional programs forward.
    So I would hope, and I do this with the sense of great 
respect for the President and for the Department of 
Agriculture, that today can be part of a calling card to them 
that we need to get the 2007 Farm Bill finished and that we 
need to get that done in the next week or two before March 15 
so that we can move forward with the food security programs 
that are in the nutrition title of the Farm Bill.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Salazar. First witness 
will be deputy assistant secretary Edwin Walker. Mr. Walker 
will provide an overview of the programs and the Administration 
on Aging that provide congregate meals for seniors as well as 
home delivered meals for those who are homebound.
    He will be followed by deputy under secretary Kate Houston, 
and I understand Kate, that the pronunciation is correct?
    Ms. Houston. That is correct.
    Senator Smith. Okay. Ms. Houston is the deputy under 
secretary for Food, Nutrition and Consumer Services at USDA. 
She will update us on the programs that work to combat senior 
hunger such as food stamps and ways that we can ensure seniors 
are utilizing the programs available to them.
    Edwin, take it away.

    STATEMENT OF EDWIN WALKER, DEPUTY ASSISTANT SECRETARY, 
 ADMINISTRATION ON AGING, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                    SERVICES, WASHINGTON, DC

    Mr. Walker. Senator Smith, thank you and distinguished 
members of the Committee, thank you for inviting the 
Administration on Aging and my distinguished colleague, Kate 
Houston, from the U.S. Department of Agriculture to address you 
today.
    Adequate nutrition plays an integral role in keeping adults 
healthy and independent as they age. It can prevent hunger and 
reduces the risk and presence of chronic diseases and 
disabilities.
    Malnutrition, including being underweight or obese, is 
closely associated with decreased functionality and impedes 
independent living. Several million older adults in the U.S. 
lack access to the food needed to sustain health and reduce the 
risk of disability.
    Nutrition services such as congregate and home delivered 
meals have always been one of the core elements of our national 
strategy for reducing food insecurity among the elderly. 
However, this is not the only thing we are doing to address 
this problem.
    Key to enabling and empowering older adults to remain in 
their homes as well as to reduce hunger is access to 
comprehensive service and support systems. The Nutrition 
Program for the Elderly, or NPE, is a targeted program to 
reduce hunger and food insecurity and promote the health, well 
being and independence of older adults.
    The NPE helps prevent deterioration of health status, 
reduces the need for more costly medical interventions, and 
participants like the meals they receive.
    Socioeconomic factors impact the vulnerability of older 
adults. Being poor, near poor, having less education, living 
alone, being isolated and having an inadequate diet are 
indicators of an increased risk for poor nutrition and health.
    Diseases like diabetes and other chronic conditions that 
change eating habits also contribute to making older adults 
vulnerable.
    The federal NPE appropriation of $758 million is leveraged 
to a total of $1.3 billion with other funding from State and 
local governments, as well as private sources such as 
individual contributions and local program fundraising.
    As a result, $238 million meals to 2.7 million older adults 
were provided in fiscal year 2006. Efficiency has consistently 
trended upward, and program participants indicate high 
satisfaction with the quality of the meals and the service 
delivery. For this, we applaud the Aging Services Network.
    The Older Americans Act does not require that all people be 
served, but does require that services be targeted. The NPE is 
effectively targeted to those with greatest levels of food 
insecurity, those who are poor or near poor, socially isolated, 
functionally impaired and in poor health.
    Despite the high level of need, the NPE, coupled with the 
home and community based services that compliment it, make a 
significant difference to a vulnerable population. For the 
majority of program participants, the program provides one-half 
or more of their total food intake and enables them to continue 
living in their own homes.
    The Older Americans Act has brought consistency and quality 
to the nutrition program. The most recent reauthorization of 
the act strengthened not only nutrition services, but provided 
authority to give people more flexible options in addressing 
their health, nutritional and long-term care needs.
    To help older adults and caregivers learn about and access 
needed services and supports, we have developed aging and 
disability resource centers, or ADRCs, single-entry points or 
coordinated systems of information and access. Initiated in 
Wisconsin, ADRCs are a perfect example of how a more 
comprehensive and coordinated approach to services and programs 
aids those at risk of losing their independence.
    Since it is often difficult for homebound older adults to 
apply for Medicaid and food stamp benefits, the ADRC in Florida 
assists high risk individuals in accessing social, health and 
nutritional assistance.
    In Oregon, evidence-based physical activity programs are 
offered through congregate nutrition sites that help older 
adults manage their chronic disease symptoms, change eating 
habits, take their medications properly and improve their 
ability to function physically and socially.
    To assist in meeting the needs, AOA and the Aging Services 
Network collaborate with USDA programs. For instance, in 
Oregon, to improve access to food stamp benefits for hard to 
reach populations, we complete applications without a second 
trip to the office for a face to face interview, which is often 
difficult for individuals who are older, adults with 
disabilities and the home-bound.
    Our programs also coordinate with other USDA programs to 
ensure that meals are provided in adult day care settings and 
to supplement meal programs with cash and commodities.
    All of these collaborations enhance our ability to help 
older adults and their caregivers meet basic food and nutrition 
needs, maintain health and functionality, and remain at home in 
the community.
    Thank you, Mr. Smith, for this opportunity. We look forward 
to entertaining your questions.
    [The prepared statement of Mr. Walker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Smith. Thank you, Mr. Walker. Ms. Houston.

    STATEMENT OF KATE HOUSTON, DEPUTY UNDER SECRETARY, FOOD 
      NUTRITION AND CONSUMER SERVICES, U.S. DEPARTMENT OF 
                  AGRICULTURE, WASHINGTON, DC

    Ms. Houston. Thank you, Mr. Chairman, and I appreciate the 
opportunity to come before you and members of the Committee 
today.
    I am Kate Houston, deputy under secretary for Food, 
Nutrition and Consumer Services at the United States Department 
of Agriculture. No one in America should go hungry. FNS 
provides children and low-income people access to food, a 
healthful diet and nutrition education.
    The elderly are a particularly vulnerable population, and 
we take the food security status of seniors very seriously. 
Improving access to nutrition assistance for the elderly is in 
fact one of the corporate priorities of the Food Nutrition 
Service this year.
    I am pleased to be sitting at the table with the 
Administration on Aging, and I appreciate the testimony of 
Edwin Walker. I would also like to take the opportunity to 
thank the Meals on Wheels Association for supporting the 
important research that we are discussing today. I think it 
reaffirms a concern of USDA that far too many seniors 
experience some level of food insecurity.
    I think there is broad agreement on the need to address 
food security among seniors. So today we should start talking 
about solutions.
    USDA tracks the prevalence of food security among seniors 
and other subgroups on an annual basis. While the measures used 
by USDA are slightly different from those used in the Meals on 
Wheels report, we generally believe that the results are 
comparable.
    In addition to the nutrition assistance programs funded 
through the Administration on Aging, the Food Stamp Program is 
the largest of USDA's nutrition assistance programs and is an 
important nutrition support for low-income seniors.
    We also administer other programs that reach seniors, 
including the Child and Adult Care Food Program, which has an 
adult day care component; The Emergency Food Assistance 
Program, which supports food banks and food pantries across the 
Nation; and the Senior Farmers Market Nutrition Program.
    In 2006, approximately 2.2 million elderly received food 
stamp benefits comprising about 9 percent of total 
participants. Elderly recipients living alone received an 
average benefit of $74 per month. The average benefit for 
households with elderly persons was $91.
    Individuals aged 60 and older participate in the Food Stamp 
Program at a rate that is substantially lower than other 
eligible groups. This is a significant problem and something 
that we are working to fix.
    In 2005, the participation rate for eligible elderly 
individuals was 31 percent, compared to 60 percent for non-
elderly adults and 65 percent for the population in total.
    From 2001 to 2005, the participation rate for the elderly 
only rose by about three percentage points, while the rate for 
non-elderly adults increased by 11 percentage points. This is 
something we need to fix.
    We have found that the elderly are less likely to know 
whether they are eligible for the Food Stamp Program, the 
amount of benefits for which they qualify, and where to apply 
for benefits. One-third of eligible elderly say they would not 
apply for food stamp benefits even if they were eligible 
because of their desire for personal independence, the 
perceived cost of applying and participating, the low expected 
benefits, and of course, stigma.
    The Food Stamp Program has unique eligibility policies that 
take into account the special circumstances faced by seniors. 
These policies make it easier for seniors to receive 
assistance.
    FNS has undertaken a number of initiatives designed to 
encourage food stamp participation by eligible elderly. These 
initiatives provide information and raise awareness, simplify 
the program, and make the application process easier while 
maintaining the integrity of the program.
    I would like to briefly mention a few of these activities. 
Between 2002 and 2004, we conducted pilot projects to test 
three alternative approaches. These approaches addressed 
simplified eligibility determination rules, one-on-one 
application assistance for the elderly, and a commodity 
alternative. The impact and cost of each model varied 
significantly.
    USDA has also awarded grants to community-based 
organizations to increase participation among under-represented 
subgroups, including the elderly. These projects indicate the 
importance of partnerships with familiar community groups and 
teach us that the desire for privacy and independence among the 
elderly is sometimes more important than the benefits. Some 
seniors need intensive assistance to understand and complete 
the application process.
    Another effort on the part of USDA to simplify the 
application process for seniors is the Combined Application 
Project. This project combines standardized benefits, minimal 
need for independent verification, and normally no need to go 
to the local office. This has produced a significant increase 
in participation among seniors.
    Currently, 13 State agencies are operating CAP programs. 
Three additional States are approved but not yet implemented, 
and seven are pending. Overall, food stamp participation among 
SSI participants in CAP states is higher than in States that do 
not have the access to CAPs.
    We also have additional activities such as standardized 
medical deduction demonstrations, and elderly disabled 
simplified application and simplified reporting demonstration 
projects.
    Within the Food Stamp Program, FNS conducts outreach 
targeted to seniors at the national level and we support 
related efforts at the regional, State and local levels. The 
Food Stamp Outreach Coalition was formed to build and 
strengthen those very partnerships. Last year, the Coalition 
held a meeting specifically focused on the issue of outreach to 
seniors.
    Mr. Chairman, I thank you for the work of the Committee and 
what you are doing to focus the Nation's attention on critical 
issues facing the senior population. USDA affirms our 
commitment to the pursuit of new ways to work with Congress, 
the States and our communities, and our advocacy partners to 
reach our elderly population with critical nutrition 
assistance.
    I am happy to answer any questions you have.
    [The prepared statement of Ms. Houston follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Smith. Kate, I suppose from the beginning of the 
Food Stamp Program there has been a certain stigma attached to 
it that makes folks reluctant to take advantage of it. I don't 
know how to break that down, but I guess we got to look for new 
ways to try and do that if we are going to make sure we address 
this issue of food insecurity.
    I think the food insecurity issue is going to go up because 
obviously the numbers of seniors is going to go up. If anyone 
has checked the grocery store lately, the cost of near 
everything has gone up because so much food is being diverted 
into fuel.
    Are you seeing more people apply now? Is the use going up?
    Ms. Houston. We have seen increases in participation among 
those who are eligible. As you can probably appreciate, our 
data do lag somewhat behind, so we don't have information that 
may reflect some of the economic downturns that we are seeing 
right now.
    But we will have access to those data in the near future.
    Senator Smith. When does that report come out? I am just 
curious.
    Ms. Houston. Around June of each year.
    Senator Smith. June of each year. It reflects the whole 
year? The whole preceding year?
    Ms. Houston. It is a 2-year lag. In June 2008, the Food and 
Nutrition Service will release participation rates for 2006.
    Senator Smith. Two-year lag. Okay.
    Ms. Houston. As soon as we have the new report out, we 
would be pleased to provide a copy to the Committee.
    Senator Smith. I would appreciate that. Edwin, under Title 
III of the Older Americans Act that provides the funding for 
nutrition programs like Meals on Wheels, we have learned that 
despite the increasing numbers of seniors and the increasing 
levels of seniors who are facing hunger, many nutrition 
programs are able to serve fewer seniors than in recent years. 
Is that because of the flat funding that has occurred for so 
long?
    Mr. Walker. Yes, Senator, it is because of the flat 
funding. But we are, as I indicated in the testimony, and 
certainly in the written version, which goes into more detail, 
we could not applaud our Aging Network more for the degree to 
which they leverage additional funding.
    Senator Smith. From private sources.
    Mr. Walker. From private sources and from State and local 
sources.
    Senator Smith. What are the net dollars? Are they going 
down? Because of the leveraged dollars from the private sector, 
when you combine public and private dollars available, are they 
going down or are they going up?
    Mr. Walker. Well, thanks to the generosity of the Congress, 
the dollars have gone up.
    Senator Smith. This last year, we got a small increase.
    Mr. Walker. There was an increase in the last year.
    Senator Smith. That was the first time in a long time.
    Mr. Walker. We can provide you the details over the past 10 
or so years which can show you the track record in terms of how 
the dollars have progressed and increased.
    Senator Smith. Whatever those dollars are from the public 
sector, say there is one dollar of public money, how many 
dollars of private money does that leverage?
    Mr. Walker. Well, as a general rule in the Older Americans 
Act, we leverage about two dollars for every dollar in federal 
investments. For homebound services, that goes up to three 
dollars.
    Specifically in home-delivered meals, it is about $2.50 for 
every dollar of federal money invested. For congregate, it is 
about, I think $1.40 for every federal dollar invested.
    Senator Smith. So has the amount of private contributions, 
have those been going up as federal funding has been flat 
funded?
    Mr. Walker. I would actually have to check the figures on 
that, because--
    Senator Smith. I would be very interested to know that. The 
American people are very generous and what I am really getting 
at, though, is what is happening to the net dollars available 
from any source arrived, public or private, is it all flat or 
is it going up, or going down?
    Mr. Walker. Those are figures that I would have to pull for 
you and I would be happy to provide them to you.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Smith. I would be very interested to know that. I 
think that would tell a story, but my questions are really 
focused on my fundamental concern that our population is aging, 
cost of fuel, cost of food are all going up.
    We have got to give thus focus or we are going to have a 
growing food insecurity problem among older Americans. That is 
just unacceptable in the United States of America, for crying 
out loud.
    So I would sure hope that this Congress, I am just 
curious--do you know what the President's request was in his 
budget, offhand? Was it an increase for this year?
    Mr. Walker. The President's budget for fiscal year 2009 is 
the same level as fiscal year 2008.
    Senator Smith. Well, I hope we can better that in the 
Congress. Senator Wyden, I am sure you will help me in that. 
You always do, you are a real champion of seniors.
    Kate, I understand the program participation for seniors in 
food stamps has increased by about a third from 2002 to 2006. I 
understand there are various reasons for this increase that 
include the outreach efforts from the USDA, and I applaud you 
for that.
    But with the increased rates of population, there has not 
necessarily been an increase in the totality as a percentage of 
older Americans, despite their eligibility. Are there any other 
reasons why more people aren't signing up?
    Ms. Houston. Well, you are correct that while the needle is 
moving in the right direction, it is not moving fast enough. It 
tends to get a little stuck, particularly for seniors.
    We know that there are specific barriers that relate to the 
unique circumstances of older Americans, and we are trying to 
target those specific barriers so that we can make better 
strides in increasing participation among those who are 
eligible.
    For example, there is myth that there is a $10 maximum 
benefit for seniors for food stamps. That certainly is not 
true.
    We know that there are transportation limitations that 
might occur for seniors. A lot of the modernization projects 
that are ongoing in many States enable seniors to apply for 
benefits through gateway organizations, such as senior centers 
or other places where they may be able to receive assistance in 
applying for benefits, we are also seeing a lot more online 
transactions.
    Senator Smith. How about just--what is the focus in terms 
of customer service, quality control and dealing with people? 
Is there a focus on that? Can there be any improvement in.
    Ms. Houston. There certainly is, and some of the grant 
programs that we have been funding through the Food and 
Nutrition Service provide specialized assistance to the elderly 
to help them sign up and obtain food stamps. We know that added 
assistance often can make a difference that enables them to get 
assistance through the program.
    I might also add that the Administration's Farm Bill 
proposal does include some specific provisions that we believe 
would be helpful to improve program access for seniors. I know 
some comments were made in opening statements regarding the 
Farm Bill.
    We continue to work with Congress and have made a priority 
to get the Farm Bill passed and signed into law this year.
    We have proposed a name change for the Food Stamp Program, 
given that we have moved to an electronic benefits system. We 
think that the name ``food stamps'' has a stigma, particularly 
among the elderly, that we can now eliminate given that we are 
no longer using paper coupons in the program.
    We also propose to exclude retirement savings accounts when 
determining the income eligibility of adults, and we think 
particularly for seniors, this is an important proposal.
    We would continue program participation grants that are 
focused specifically on how we can increase participation among 
elderly and other population groups.
    Senator Smith. Well, we talk about stigma and I am hoping 
that at least those who do come to USDA for food stamps, they 
are greeted with some dignity. I am not saying you have to have 
a Wal-Mart greeter out front, but I do think quality control 
and human relations is something to keep a focus on so that 
these folks who are in need are not discouraged from enjoying 
their eligibility for these programs that are designed to 
address the very problem this hearing is focusing on. Senator 
Wyden.
    Ms. Houston. We try to, if I might add, not make there be 
any kind of thinking about the Food Stamp Program as a welfare 
assistance program. This is really a nutrition assistance 
program.
    I think that distinction is important, particularly among 
the elderly, who tend to be less interested in wanting any help 
from the government. But if they see it as nutrition 
assistance, they may be more willing to participate.
    Senator Wyden. Senator Smith, thank you, and I thought your 
questions were very helpful. Let me just kind of pick up on 
some of them.
    Mr. Walker, every time I go to a Meals on Wheels program, 
they always tell me they have a very long waiting list. Can you 
give me a sense, looking at our country as a whole, how many 
older people are on these waiting lists?
    Mr. Walker. Thank you for the question, Senator. There is 
no national system of maintaining waiting lists. We have heard 
anecdotally that, many programs do use waiting lists as one 
method of prioritizing their services to those who are most in 
need.
    However, there are no standards for maintaining waiting 
lists. They vary around the country, even within States by 
providers, and so there is no way for us to determine on a 
national basis the number of people on waiting lists or that 
waiting lists would represent the universe of people who are 
not receiving services.
    Senator Wyden. Wouldn't it be useful to have something that 
would even give us a ballpark idea of how many people are on 
these waiting lists? I think your point is valid that there are 
different kind of systems, but it would seem to me that you 
all, with your connections into all of these programs, could 
accumulate this information and come to the Congress. It would 
be very useful to have this information as we try to make this 
bipartisan case to get additional funding. Do you disagree with 
that?
    Mr. Walker. No, I don't disagree. But I would say that the 
Older Americans Act and, as you all have pointed out, has 
always enjoyed strong bipartisan support.
    There is a real sense of ownership at every level, the 
federal, State and local level, into the program. There's 
ownership related to the program. People feel that it is not a 
welfare program, it never has been, and therefore there is a 
real affinity which accounts for the degree of participation by 
seniors themselves, in terms of volunteering their time, 
donating their resources, and in terms of identifying the 
degree of need that exists.
    We have looked at a variety of things, and we believe 
today's study that you will hear about is one additional tool 
available to us to identify and highlight the degree of need 
today, the degree of need that we can project in the future, 
and it can assist us and our programs in determining how best 
to target the resources that we have available to us.
    Senator Wyden. That all sounds plenty useful to me. I 
certainly think that you are right about the affinity that the 
Congress feels for this program. But I still don't understand 
why it wouldn't be useful to have a ballpark number of how many 
people are on these waiting lists, because I think that would 
send a message to the Congress that there is a lot of heavy 
lifting to do.
    Is this something that you think you could take on now and 
try to pull together for us? Because I know I would like to 
have it. I would like to be able to use that with other 
senators, to be able to say, look, there is this huge, huge 
waiting list out there across the country, and I think it would 
help us make the case.
    Mr. Walker. Certainly. We operate this program in 
partnership with the 56 State units on aging, the 655 area 
agencies on aging, the more than 29,000 local service 
providers, in excess of 5,000 who are nutrition service 
providers, and the 243 tribal organizations representing more 
than 300 tribes.
    We would be very interested in attempting to find out more 
about the unmet need. However, we would have to use the caveat 
that waiting lists are not kept by every program. We don't even 
have a sense of how many programs keep them. But it would be 
one indicator.
    Senator Wyden. How long do you think it would take to be 
able to give to this Committee, the Chairman and Senator Smith, 
our ranking minority member, even a ballpark idea of how many 
people are on these lists?
    Mr. Walker. I think that by working with our partners 
throughout the entire network, we could work on methods, 
including waiting lists. But I would not want to limit it to 
waiting lists because I think that your question really speaks 
to the need as opposed to a mere number on a waiting list.
    Senator Wyden. That is fine. I just know that every time I 
go to a program, this is the first thing they tell me. They 
say, Ron, we have this enormous waiting list. So could you have 
this for us in, say, 90 days?
    Mr. Walker. Senator, we would be more than pleased to 
provide you all of the data we have from other studies that 
have taken place. I don't believe we have the ability to go to 
every provider in order to find out whether or not they have a 
waiting list and how many people are on their waiting list as 
an average number per year within a 90-day period.
    Senator Wyden. I want to ask some other questions, but I 
find this a little odd. There is a network of federally-funded 
programs, Meals on Wheels, we have names, addresses and phone 
numbers, and it would seem to me fairly straightforward to send 
them an e-mail saying that the Senate Special Committee on 
Aging would like to have an idea in a general way of how many 
people are on your waiting list.
    I hope you will do it. I want to move on to some other 
areas.
    Mr. Walker. Certainly.
    Senator Wyden. Ms. Houston, give me your sense, if you 
would, of how your efforts are increasing the percentage of 
older people who are using the Food Stamp Program. It seems to 
me you all have undertaken a number of efforts in the last few 
years, and just take the last 5 years.
    In the last 5 years, as a result of your efforts, what has 
been the increase in the percentage of older people who are 
using the food stamp program?
    Ms. Houston. From 2001 to 2005, we have seen an increase of 
three percentage points in the use of the program among 
elderly. This is significantly slower growth than we have seen 
for the food stamp population as a whole. Between the same 
period of time, the total increase has been about 11 percentage 
points.
    So we know that we have specific work to do with this 
population, which is why we have placed, as a corporate 
priority at the Food and Nutrition Service, emphasis on how we 
can increase participation among the elderly.
    We have a number of initiatives that are underway 
specifically designed to address this issue, and I would be 
happy to provide you detailed information about a wide range of 
activities that are ongoing in this regard.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Wyden. My light is on, and extra points for candor. 
I appreciate your really giving us concrete numbers about the 
gap. I would just wrap up by saying, what do you think in terms 
of the most recent initiatives that you have taken on? What do 
you think are the most promising efforts for closing the gap?
    In other words, as Senator Smith has indicated, we are 
going to have to make some choices and certainly we want to do 
as much as we can as quickly as possible, what do you think 
would be the recent initiatives that would be most likely to 
close the gap?
    Ms. Houston. Well, for several years we have been funding 
program participation grants. Those grants are helpful because 
they give us information about unique pilots and demonstration 
activities around the country and what they have done to make 
improvements in participation.
    One of the model programs that we think has been 
particularly interesting and that we would like to see 
replicated is called MiCafe. Through this program, trained 
application assistants locate seniors at places like senior 
centers and then they do a facilitated enrollment.
    So instead of having the seniors go to the food stamp 
office, they can actually fill out the application at places 
where they already go, where they feel comfortable, where they 
know the people, where they feel a sense of privacy.
    This eliminates transportation needs. It breaks down 
barriers with regards to the use of technology. If we can 
identify ways in which we can support what we know about 
seniors and their culture, and then get them the benefits that 
way, we will see improvement in participation.
    Senator Wyden. Thank you. Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Wyden. I think your 
questions were very helpful, too, and I think they point up a 
need that we have to have more information so we can better 
guide, frankly, what kind of budgets we ought to be producing, 
what kind of budgets the Administration ought to be asking for.
    What I would suggest is that the minority and majority 
staffs of the Aging Committee work with the Administration 
Meals on Wheels program to perform a survey so that we can get 
at least a ballpark number, because I think we have pointed up 
a real need in order for us to be better able to meet our 
responsibility in these programs that will, by a matter of 
demographics, they will be growing.
    So with Senator Kohl's permission, I will visit with him as 
well, and I know my staff is anxious and ready to go on this.
    Thank you, Edwin Walker, Kate Houston, we appreciate you 
very much, your service and what you have done to help us to 
understand these vital programs.
    Ms. Houston. Thank you very much. Thank you.
    Senator Smith. Our second panel, we are pleased to welcome 
Marcus Lampros, who is the present of Lampros Steel, Portland, 
OR. Mr. Lampros is also a volunteer with the Loaves and Fishes 
centers, a program, and Senator Wyden, in my home State that 
serves congregate and home-delivered meals.
    He will discuss his work as a volunteer and the needs of 
local programs like Loaves and Fishes. Loaves and Fishes, in 
fact, has 35 meal sites in Multnomah, Washington, and Clark 
Counties, and serves 5,000 meals daily, and more than 1.3 
million meals each year.
    Our second witness will be Dr. James Ziliak. He is director 
of the Center for Poverty Research at the University of 
Kentucky. He will present the work that he, along with 
Professor Craig Gunderson of Iowa State University performed to 
author the Meals on Wheels Association of America Foundation 
funded study. It is entitled ``The Causes, Consequences and 
Future of Senior Hunger in America.''
    Then we will hear from James Weill. He is president of Food 
Research and Action Center. He will discuss the work and 
advocacy that FRAC on behalf of those who go hungry across the 
Nation.
    Then Robert Blancato, he is executive director of the 
National Association of Nutrition and Aging Services Programs. 
He has discussed the needs and struggles that many meal 
programs face and provide recommendations for improvement and a 
range of programs that aid seniors.
    Finally, last but not least, Jan Jones. She is senior vice 
president of communications and government relations of 
Harrah's Entertainment, Inc. She will discuss the corporate 
response to hunger and the need to have not only government 
intervention in the problem but also the necessity of 
mobilizing private contributions to combat senior hunger.
    Marcus, good to see you. Take it away.

 STATEMENT OF MARCUS LAMPROS, PRESIDENT, LAMPROS STEEL, INC., 
                          PORTLAND, OR

    Mr. Lampros. Good to see you, Senator Wyden, Senator Smith. 
Thank you very much for everything you do for our great State. 
You are champions, both of you.
    Thank you for the opportunity to testify before the 
Committee today. My name is Marcus Lampros, and I volunteer for 
Loaves and Fishes, the Meals on Wheels people in Portland, OR, 
and I am here on behalf of the Meals on Wheels Association of 
America.
    Our senior meal program in Portland serves 5,000 meals per 
day, or 1.2 million meals each year to elders in northwest 
Oregon and southwest Washington. We provide this vital service 
with a $9 million operating budget. Almost half of that is 
supported from government sources. We are one of the few 
programs in the country that does not have a waiting list.
    For the past 15 years, our staff and board of directors has 
been planning for the aging of the baby boomers. In 2003, we 
constructed a State of the air central kitchen, and we have 
been adding and upgrading our 35 meal sites each year.
    As our community population ages, we are experiencing 
significant increases in demand for food and project by 2019, 
we will double the amount of meals that we deliver.
    Our kitchen, which is one of the largest non-profit 
facilities in the Nation, is equipped to prepare over 12,000 
meals a day, or more than 3 million meals a year.
    Let me tell you about our typical client. She lives alone 
in her own home, she doesn't have the money to buy all the food 
she needs to maintain an adequate diet.
    Our community based Meals on Wheels program gives homebound 
seniors like her the option to remain healthy and independent 
in their own home. Without this valuable, basic service of hot 
meals, these people would be placed in costly care facilities.
    It should be noted that if half of our 5,000 daily clients, 
just half of them, had to turn to nursing homes, just in the 
Portland area, the additional cost would be $100 million. Much 
of the financial burden would fall upon the Federal Government.
    If you extrapolate that figure nationally and replicate 
programs like Meals on Wheels in Portland, you could the 
American people billions of dollars a year. Remember, the 
Portland senior program feeds 5,000 people a day, 1.3 million 
people each year on only a $9 million budget.
    How the heck do we do it? In a word, volunteers. Meals on 
Wheels in Portland depends upon 7,500 volunteers every year to 
serve and deliver meals. Each day, we have enough volunteers to 
fill a Boeing 747.
    That is right, every single day, 500 volunteers show up to 
work at our local meal sites and deliver hot meals in our area. 
We estimate that we receive over $25 million a year in free 
volunteer labor. This in itself tells all of you and 
prospective donors that we are a good investment for the 
community.
    Last, we provide more than just a hot meal. We also provide 
fellowship and dignity to our clients. Throughout my 20 years 
of service with Loaves and Fishes Meals on Wheels, over 100 of 
my clients were able to pass their final days in the comfort 
and security of their own home.
    I delivered meals to Joe and Helen for 10 years. Joe was 
disabled and confined to a wheelchair. One day, he wife, Helen, 
the healthier of the two, died suddenly.
    When Joe answered the day and told me the sad news, he was 
certain that he would have to move to a nursing home. But with 
help from a friend and our commitment to continue to deliver 
meals, Joe was able to continue living at his home for 5 more 
years.
    By sharing stories like these with colleagues, friends and 
relatives, each week someone new steps up to volunteer and make 
a difference in the lives of seniors. The Meals on Wheels 
people make a difference in hundreds of thousands of lives 
across the country.
    I am particularly proud of our Portland, OR program, which 
is the model for the entire country. In Oregon, our 
investments, our staff, our supporters are laying the 
foundation and creating a template which will serve the 
millions of elderly Americans coming our way.
    With your help and the continued support of our donors and 
volunteers, seniors in our community will have the opportunity 
to spend more time in their own home as they grow older.
    Thank you again for the opportunity.
    [The prepared statement of Mr. Lampros follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Smith. Thank you, Marcus, that is a very inspiring 
story. Good news for Oregon because of your work and the work 
of Loaves and Fishes.
    Senator Wyden. Might have to put you in charge of the 
Federal Government. No waiting list. [Laughter.]
    Mr. Lampros. No waiting list. I was interested to hear you 
say that, but we are one of the few. Joan wanted me to make 
sure everyone knew that.
    Senator Smith. James, I understand Craig Gunderson is here. 
I failed to mention him. I think he is here to backstop you. 
Okay, we will see if you need him.

    STATEMENT OF JAMES ZILIAK, DIRECTOR, CENTER FOR POVERTY 
  RESEARCH, DEPARTMENT OF ECONOMICS, UNIVERSITY OF KENTUCKY, 
                         LEXINGTON, KY

    Mr. Ziliak. Mr. Chairman, Senator Wyden, I thank you for 
the opportunity to appear before you today.
    My name is James Ziliak, and I am a professor of economics 
at the University of Kentucky and director of the Center for 
Poverty Research.
    The center is a non-partisan, non-profit research 
organization and is one of four poverty research centers funded 
by the Assistant Secretary for Planning and Evaluation in HHS.
    My co-principal investigator, Professor Craig Gunderson of 
Iowa State University, and I are here to discuss the results of 
our study on senior hunger in America. Funding for this study 
was generously provided by the Meals on Wheels Association of 
America Foundation and underwritten by Harrah's Foundation. The 
views expressed are our own and do not necessarily reflect the 
views of any sponsoring organization or agency.
    Hunger is serious threat facing five million, or 11 percent 
of all seniors age 60 and over in the U.S. Despite this 
important public health threat, we know very little about the 
extent, causes, consequences and future of senior hunger in our 
Nation. The purpose of our report was to fill in some of the 
gaps in our knowledge.
    Our study paints a portrait of senior hunger in America 
that is at once familiar and surprising. The familiar being 
that seniors are more likely to be at risk of hunger if they 
are living at or below the poverty line, if they are a high 
school dropout, an African-American or Hispanic, divorced or 
separated, socially isolated.
    The surprising being that seniors are more likely to be at 
risk of hunger if they are relatively young seniors between the 
ages of 60 and 64, or if they are living with a grandchild.
    Also surprising are the staggering differences in hunger 
risk across age, education, race, family structure and social 
support networks. Controlling for other factors, we find that 
seniors in their mid-80s are over one-third less likely to be 
at risk of hunger than seniors in their mid-60s.
    A high school graduate is 20 percent less likely to be at 
risk of hunger compared to a high school dropout. A college 
graduate is 40 percent less likely.
    On the other hand, African-American seniors are 75 percent 
more likely to be at risk of hunger than white seniors. Never 
married seniors are 20 percent more likely to be at risk at 
hunger compared to married seniors.
    Seniors living with a grandchild or who are socially 
isolated are each about 50 percent more likely to be at risk of 
hunger. Our results highlight a sizeable population facing an 
unmet food need that is likely to grow significantly with the 
baby boom generation entering their 60s.
    The next part of our report examines the health related 
consequences of hunger risk among senior Americans. After 
controlling for other factors, we find that seniors facing the 
risk of hunger are significantly more likely to have lower 
intakes of energy and major vitamins, more likely to be in poor 
or fair health, more likely to have limitations in activities 
of daily living.
    For example, a senior at risk of hunger has the same chance 
of an ADL limitation as a senior at no hunger risk that is 14 
years older.
    We conclude by offering predictions on the possible scope 
of senior hunger in America in the year 2025, when the 
demographic bulge of retirees will be at its peak. In 2025, an 
estimated 9.5 million seniors will experience some form of food 
insecurity, or about 75 percent more than in 2005; 3.9 million 
seniors will be at risk of hunger, a 50 percent increase; 1 
million seniors will suffer from hunger, a 33 percent increase.
    Although these are about the same percentages of the senior 
population as today, the substantial growth in numbers at risk 
of hunger is alarming and highlights an additional challenge 
with the looming retirement of baby boomers.
    Making projections 20 years into the future should always 
be accompanied with some caveats. For example, our projections 
of hunger may be too low if there is something unique about 
current retirees born before the Great Depression. 
Alternatively, if the combination of strong economic growth and 
enhanced public policies reduced poverty substantially in the 
future, or if there are significant improvements in education 
attainment, it is possible that our estimates of hunger will be 
too high.
    Moreover, we recognize the influence of elderly nutrition 
programs such as Meals on Wheels and the Food Stamp Program 
have on alleviating senior hunger. Expansions of these and 
related nutrition programs could lead to future reductions in 
hunger.
    This report is but a first step in improving our 
understanding of senior hunger in America, and much work 
remains to be done. We again thank the Committee for the 
opportunity to share the results of our research.
    We hope our findings will serve as a springboard for 
additional research on the causes of hunger identified here and 
for further policy discussions on the provision of food 
assistance to ensure that no senior will be at risk of going 
without safe, adequate and nutritious food.
    Thank you.
    [The prepared statement of Mr. Ziliak follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Smith. Thank you. Craig, did you have anything to 
add to that? Did he do okay? [Laughter.]
    Mr. Gunderson. He did a great job.
    Senator Smith. Okay, alright. James Weill.

 STATEMENT OF JAMES WEILL, PRESIDENT, FOOD RESEARCH AND ACTION 
                     CENTER, WASHINGTON, DC

    Mr. Weill. Senator Smith, I am Jim Weill from the Food 
Research and Action Center, and we appreciate the opportunity 
to testify here this morning. We are pleased that the Committee 
is having this hearing on this important problem.
    More than one in five elderly persons in this country had 
income below 150 percent of the federal poverty line in 2006, 
the last year for which there are data. When people have 
inadequate incomes, very often they are food insecure. That is 
the U.S. Department of Agriculture phrase for households 
struggling with hunger, where resource constraints mean that 
people are skipping meals or otherwise can't afford a basic, 
balanced diet. For seniors, food insecurity, of course, has 
significant adverse health and quality of life outcomes.
    The most recent government report showed that 6 percent of 
households with elderly members in them are food insecure.
    That is simply not acceptable. These numbers may well get 
worse in the years ahead, as the Committee has mentioned this 
morning, and as Professor Ziliak did as well, as the elderly 
population grows, as some of the more disadvantaged groups 
among the elderly population grow the fastest, and as seniors 
face rapidly rising out-of-pocket health care costs, energy 
costs and food costs.
    The first thing we need to do is to make sure that the 
Nation protects and shores up economic supports like Social 
Security, SSI and other supports. Second, we have to make sure 
that the federal nutrition programs are strong enough to 
supplement the income programs.
    Programs like Senior Farmers Markets, the Emergency Food 
Assistance Program, the Commodity Supplemental Food Program and 
Meals on Wheels have been weakened as their funding has lost 
ground to inflation and population growth.
    Thankfully, Congress has repeatedly rejected the 
president's proposal to eliminate the Commodities Supplemental 
Food Program, but it's funding has been eroded so that it has 
17 percent fewer slots than in 2003. The number of slots is 
declining while the senior population grows. The same thing is 
true of Meals on Wheels and the congregate meals programs.
    But I want to focus the last couple of minutes I have on 
the food stamp program, which is the Nation's most important 
bulwark against hunger. As has been said this morning, only 
about 65 percent of eligible people receive food stamps. 
Shockingly, less than a third of eligible seniors receive food 
stamps.
    The program is still incredibly important and has broad 
sweep. Well over two million seniors receive food stamps every 
month. But it can do much, much more, and it needs to do more 
both to meet the current problem and the growth in food 
insecurity that Professor Ziliak has projected.
    As described in detail in our written testimony, elderly 
persons are being deterred from applying by stigma, by 
unnecessary paperwork, by a belief, not always correct, that 
they are likely only to get the $10 minimum monthly benefit, 
and by a lack of respect from the program bureaucracy in some 
places, even including fingerprinting.
    Senator Smith. Fingerprinting?
    Mr. Weill. Yes, yes, Mr. Chairman.
    Senator Smith. Why would that be--why would there be 
fingerprinting?
    Mr. Weill. I believe it is an ill-conceived attempt to 
deter fraud and detect fraud. It is only happening at this 
point in a couple of States, but it shouldn't be happening 
anywhere in the program.
    Senator Smith. Sorry to interrupt you--
    Mr. Weill. No, that is fine. We applaud the Food and 
Nutrition Service's recent media efforts and other outreach to 
seniors. We need more such outreach from FNS and State and 
local agencies.
    Senator Wyden asked, what works best? I believe the answer 
to that may be the SSI CAP program that Kate Houston referred 
to, which involves the Social Security Administration in 
contacting seniors, helping to get food stamps to seniors so 
they have less interaction with State food stamp bureaucracies.
    The CAP program also offer many seniors somewhat more 
benefits than they think they are going to get under the 
program. But the CAP program only operates in a few States, and 
we need it to operate in many more States.
    We also need States and localities to use the many options 
they have under federal law to lower the barriers I described 
earlier.
    Congress needs to strengthen the program. The Farm Bill 
that is pending right now in a Conference Committee potentially 
makes some important first strides. Indeed, there are important 
changes in the Farm Bill for seniors in the food stamp program.
    Both the House and Senate bills raise the minimum benefit 
from $10 to $16 and adjust it for inflation. That benefit 
hasn't been raised since 1977, and the amount of it deters 
people from applying.
    The Senate Bill also raises the asset limits applicable to 
households with elderly or disabled members from $3,000, where 
it was set three decades ago, to $4,500 and indexes it for 
inflation.
    One or both of the bills make other helpful changes: 
improving the standard deduction, simplifying reporting, and, 
as Kate Houston said, renaming the program, which will help de-
stigmatize it since it no longer actually has coupons or scrip.
    These are great first steps. We need the Farm Bill to be 
finished, and we hope the members of this Committee will push 
to get the bill with its good nutrition provisions for elderly 
persons past the last hurdles. Then we hope to work with you to 
do more in these key respects.
    One last thing. I want to refer back to something that 
Senator Salazar said about the stimulus bill and mention how 
important it would be to get a food stamp boost into a second 
stimulus bill if that happens in the Congress.
    Thank you very much.
    [The prepared statement of Mr. Weill follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Smith. Thank you. Robert Blancato.

  STATEMENT OF ROBERT BLANCATO, EXECUTIVE DIRECTOR, NATIONAL 
     ASSOCIATION OF NUTRITION AND AGING SERVICES PROGRAM, 
                         WASHINGTON, DC

    Mr. Blancato. Thank you, Senator Smith, Senator McCaskill, 
good morning. It is an honor to be back testifying before this 
Committee.
    My name is Bob Blancato, and I am executive director of the 
National Association of Nutrition and Aging Services Programs. 
I commend the focus of this hearing, the causes, consequences 
and future of senior hunger in America.
    I salute our colleagues from the Meals on Wheels 
Association for the study they are releasing today. Studies and 
constant advocacy can help us develop a call to action on 
senior hunger.
    Senior hunger is neither a myth nor a mirage. Real national 
data dispels the falsehood. There are older people going hungry 
every day in our country.
    Terms that have been used to discuss this issue include 
food insecurity, food insufficiency, malnutrition, and of 
course, hunger. There is one common bond--more older Americans 
than ever before are at risk of being victims.
    Some major findings from a 2003 study done at Brandeis 
University remain true today. There is a close connection 
between inadequate income and hunger.
    National estimates of food insecurity among older Americans 
then ranged between 5.5 to 16 percent. A 2007 study of hunger 
among New York City's elderly, cited in my testimony, reveal a 
35 percent rate of food insecurity among older people.
    Food insecurity rates are higher where the elderly live 
alone, and most recently, the 2007 profile of older Americans 
report that 48 percent of women 75 and over now live alone.
    Hispanic and African-American seniors are more likely to 
live in food insecurity. Other causes include functional 
physical impairments, social isolation and reduced ability to 
regulate energy intake.
    Also among causes, as mentioned, is access to benefits. 
Programs such as food stamps continue to be underutilized by 
needy seniors.
    There is ever-growing higher demand on emergency food 
assistance programs across the county. There are a growing 
number of persons, including older persons, living in food 
desert areas, where supermarkets with healthy and affordable 
food are miles away.
    The consequences of senior hunger are all health related. 
Seven of the top 10 diseases in this Nation have a connection 
to nutrition. Work that was done at the 2005 White House 
Conference on Aging pointed to the fact that only 9 percent of 
the diets of poor, older people are categorized as good.
    Forty percent of community residing persons 65 and over 
have inadequate nutrient intake. Food insecurity leads to 
malnutrition, which itself can lead to increased utilization of 
health care services, premature institutionalization and 
increased mortality.
    To help prepare for the hearing, we did an informal canvas 
of some nutrition providers in different parts of the United 
States to ask them about the State of their programs and the 
seniors they serve and what they might see ahead.
    From the Aging Resource Center in Douglas County, 
Wisconsin, their director said, ``The need for services 
continues due to high gas prices, along with the growing aging 
population in northern Wisconsin. Providing this service helps 
people stay in their homes. But the cost for these seniors to 
maintain their home and the increase in the cost of food is a 
hardship. Sometimes the meals we deliver are the only source of 
nutrition,''
    In San Diego, 90 percent of seniors coming to one nutrition 
provider live at or below poverty. In Washington State, a State 
provider points to a survey of Meals on Wheels participants. 
Forty-three percent of them had food insecurity before the 
program, and if they didn't have home-delivered meals, 17 
percent of them said they would go hungry.
    In Michigan, we learned that 25 percent of the 60-plus 
population in one area of the State live in isolation, but 
there is also a decrease in participation in nutrition 
programs, which is a concern.
    In Kansas, we are told of a very rural community with no 
grocery store or restaurant, but one vending machine, with the 
nearest food being 12 miles away. There are more of these in my 
testimony.
    Let me go to some policy recommendations that we support, 
and I have a longer list in my written statement. NANASP, along 
with the Leadership Council of Aging Organizations, support a 9 
percent across the board increase for Older Americans Act 
programs in fiscal year 2009, including nutrition programs.
    Yes, we do commend the Congress for the roughly 6 percent 
increase that has been afforded to the nutrition programs in 
the last 2 fiscal years under the Older Americans Act. We want 
to see restoration of funding for the Commodities Supplemental 
Food Program, restoration of funding for the Community Services 
Block Grant, and a restoration of a proposed $500 million cut 
in Social Services Block Grant, all of which are programs that 
serve nutrition programs for the elderly.
    Like others have said, we want to see action finished on 
the Farm Bill that will strengthen the food stamp program by 
getting more seniors enrolled and providing a higher minimum 
benefit, and also extending the Senior Farmers Market Nutrition 
Program.
    NANASP appreciates the invitation to participate today. We 
must reduce hunger and food insecurity among the elderly. There 
can be no quality of life for an older person who goes hungry.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Blancato follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Smith. Jan Jones.

 STATEMENT OF JAN JONES, SENIOR VICE PRESIDENT, COMMUNICATIONS 
  AND GOVERNMENT RELATIONS, HARRAH'S ENTERTAINMENT, INC., LAS 
                           VEGAS, NV

    Ms. Jones. Good morning, Mr. Chairman, Senator McCaskill. I 
am Jan Jones, a senior vice president for Harrah's 
Entertainment, and I appreciate the opportunity to testify in 
front of the Committee this morning.
    As you are well aware, the Meals on Wheels Association of 
America is the largest and oldest national organization 
representing senior meal programs. Since 2002, the Harrah's 
Foundation has been proud to be the primary sponsor of the 
Meals on Wheels Foundation, donating $4.5 million to their 
initiatives, which has included the purchase of 30 additional 
vehicles that have driven 900,000 miles to deliver 2.5 million 
additional meals to hungry seniors in America.
    We enthusiastically funded the senior hunger study for 
several reasons. First, it was a way to put into action our 
Code of Commitment. Established in 2000, the Code of Commitment 
was our industry's first articulation of corporate social 
responsibility standards.
    The Code governs our relationship with our guests, 
employees and the communities in which we do business. It 
defines who we are and what we stand for. The Code commits us 
to making our home communities more vibrant places to live in 
and work and sets standards for employee volunteerism and 
corporate philanthropy.
    Before we underwrote the research, we had some sense of the 
magnitude of senior hunger in the United States because 
hundreds of our employees regularly deliver meals to needy 
seniors in all of our States where we do business.
    These employees know firsthand that America's greatest 
generation sometimes is going hungry. Multiplying those 
employees' experiences across the country gives a scope to a 
problem that has been hidden from most Americans.
    We also knew from working with MOWAA that at least 40 
percent of home delivered meal programs have waiting lists, 
evidence of an enormous unmet need for those services. We are 
pleased that the research discussed today provides up to date 
estimates on the scope of senior hunger in the United States 
and increases our knowledge of risk factors and consequences. 
Better understanding of the problem will lead to better 
understanding of public and private resources that must be 
dedicated to the solution.
    Second, applying the research findings will lead to 
targeted fact-based interventions that render more effective 
both private sector and public sector efforts to reduce senior 
hunger. The research will help MOWAA realize its vision, a 
vision that we share, of no senior going hungry.
    Third, our fervent hope is that the research and today's 
hearing can energize corporate America to recognize ending 
senior hunger as a moral and philanthropic imperative, one that 
depends on effective leadership in corporations, governments 
and communities across the country.
    MOWAA has recognized the crucial role of the private sector 
through the development of its Corporate Response to Senior 
Hunger. A key part of the National Center for Nutrition 
Leadership, the Corporate Response to Senior Hunger is designed 
to harness the resources of America's corporate community in a 
joint effort to identify its role and to expand its commitment 
in the battle to eliminate hunger and malnutrition among our 
Nation's elderly.
    An important component of the Corporate Response to Senior 
Hunger is to challenge the corporate community to become 
engaged in this issue. Here in the richest country in the 
world, many corporations want to make a difference. However, 
for a variety of reasons, they often do not known how they can 
help. The Corporate Response to Senior Hunger seeks to bridge 
this knowledge gap.
    We are working to identify key business leaders who share 
the commitment to ending senior hunger and engaging their 
corporations in this effort. Some of these individuals are 
already assembled through their service on the MOWAA Foundation 
board of directors, but many more leaders are needed.
    I challenge my colleagues in corporate America to join 
Harrah's and take a leadership role in the Meals on Wheels 
Association of America Corporate Response to Senior Hunger. 
Writing a check is one solution, but the Corporate Response to 
Senior Hunger believes that it is as important for America's 
business leaders to consider other initiatives where they can 
help.
    Effectively transferring surplus food produced by American 
manufacturers to senior meal programs. Encouraging meal 
providers to participate in an existing purchasing program that 
enable them to buy their food more efficiently.
    Offering mentoring services to identify ways to educate 
meal providers about running businesses and efficiencies in 
operations and distribution. Working effectively in partnership 
with meal providers to identify solutions and create systems 
that work best for them in the collective mission to end senior 
hunger.
    Very importantly, increasing awareness about the nutrition 
needs of America's seniors and the issue of hunger among the 
elderly.
    All of our company efforts on behalf of America's seniors 
have been fulfilling, and particularly our association with 
MOWAA.
    But the hard work to address senior hunger has only begun. 
The research discussed today is a call to action for all 
Americans. It is no small measure a call to action for 
corporate America. The need is clear, the need is documented, 
the need is critical.
    I thank the Chairman, members of the Committee for helping 
to bring senior hunger to the attention of the public. I also 
thank you for allowing me to explain the Corporate Response to 
Senior Hunger and to challenge corporate America to embrace its 
very important role in ensuring that no senior continues to go 
hungry.
    [The prepared statement of Ms. Jones follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Smith. Thank you, Jan. We commend you and your 
company for their sense of responsibility in the involvement of 
this program.
    We are joined by Senator McCaskill. If you have an opening 
statement or a statement you want to make, questions you want 
to ask.

         OPENING STATEMENT OF SENATOR CLAIRE MCCASKILL

    Senator McCaskill. That is terrific. Thank you, Senator, I 
appreciate it.
    I just want to, first of all, thank all of you because I 
don't think any of you are here because what you know about and 
what you are testifying about today has brought you fame or 
fortune. I think you are all here because you believe in caring 
for our fellow man and helping other people.
    I think so often we don't include that in the umbrella of 
patriotism, but you are patriots for what you are doing, and 
your work and your willingness to come and try to shed some 
light on what is a heartbreaking problem in our very wealthy 
Nation.
    A lot of the problem, I think, is a combination of the 
squeaky wheel getting the grease and the elderly, by their very 
nature, are not anxious to step up and say ``I am hungry.''
    I have some experience, I have a mother who is high 
intellect but also high pride. Her pride keeps her from 
speaking out and asking for help sometimes. I think that is so 
common in our elderly population, that the greatest generation 
feels like they should be doing for others and no one should 
have to be doing for them.
    So they do not lobby as aggressively as they could. They do 
not complain, they do not ask for help. As a result, some of 
our systems aren't as efficient and fine-tuned as they should 
be.
    Mr. Lampros, I missed your testimony, but I must say hello 
to you from my family that knows you in Portland, and I got--
the family member who notified me about your being here today, 
I know you know her. You know that it isn't a matter of one e-
mail. It was a matter of seven e-mails, four phone calls and 
saying, ``You have got to be there to listen to Marcus.''
    So would you please tell her I got here, even though I had 
three other hearings this morning so I don't get 17 text 
messages this afternoon?
    Mr. Lampros. Don't tell her I deleted her phone message 
after about 5 minutes.
    Senator McCaskill. Okay, good. We are in on this together, 
and hopefully she will never know we talked this way.
    But you talked, I know, in your testimony about the 
efficiency of the way that you are helping people in your 
organization. I know that government has a hard time with 
efficiency, and I know you are also a businessman.
    Could you briefly give us some ideas of if you could do a 
weekend retreat with the government part of this operation in 
terms of Meals on Wheels, what would you recommend in terms of 
how we could be more efficient with the programs we have out 
there, as opposed to the private sector programs like yours 
that is obviously relying heavily on a massive volunteer base, 
which I am not sure that we always work at doing in the 
government sector?
    Mr. Lampros. That was one of my questions. I don't even 
know if the government has an area that concentrates on getting 
volunteers, because Portland is very blessed. We have many 
people who step to the plate.
    I think we are very out of the ordinary in Portland. I 
think if we have a retreat, I think, yes, feeding people, that 
is great, but getting people, first of all, to volunteer, 
gathering volunteers is harvesting money.
    When you think about it, your arms and legs are very 
important when you help people. Getting the food to them, 
beyond that, is easy. So getting those volunteers is very 
important.
    Senator McCaskill. Can any of you speak to the ability of 
the Meals on Wheels program to attract volunteers? No one?
    Ms. Jones. Within Harrah's, hundreds of employees have 
given thousands of hours, and it has been because the Meals on 
Wheels organization creates a passion. Our employees see where 
they can really help make a difference.
    So some of it is very much communication. I think across 
corporate America you would find volunteers that are ready and 
willing to give their time if they know how and if they know 
where, and if they are given a strategy that they can be a part 
of.
    Mr. Blancato. I would also add that both in the home 
delivered meals and in the congregate meal programs, volunteers 
are critical to the success of both of those programs. There 
has been a steady stream of volunteers for the many years that 
these programs have been in existence. The trends continue to 
grow for volunteerism.
    It is word of mouth, and it is also outreach and it is 
people's capacity to want to help.
    Senator McCaskill. Seems to me that we have witnessed, 
regardless of who you are for in this presidential race, we 
have witnessed an awakening of the American public in terms of 
their ability to participate by virtue of a mouse click. Just a 
little bit, but millions and millions of people doing just a 
little bit.
    We have never seen that before. Not to this extent. I know 
that it is sometimes hard to reach the elderly population with 
an Internet based effort to gather people because many of them 
are not don't have access or they are not as computer literate.
    But it seems to me the volunteer base is extremely computer 
literate and extremely available by Internet. Are any of you 
aware of any effort being done through Internet communication, 
whether it is Facebook or--we have got an awful lot of young 
people who are doing most of their communication through 
Facebook.
    Bizarre, trust me, I have got three of them that do it. It 
drives me crazy, but I know there is a lot of volunteerism out 
there in this generation, and frankly it would do them good to 
spend time around some of the people that they were helping 
with these meals.
    They would learn a lot. It would give them great 
perspective on their lives and what is important. Are you aware 
of any effort that has been made in some creative ways to reach 
out to the younger generation to volunteer in this regard?
    Mr. Weill. Well, Senator, one that is slightly different 
and not necessarily directed specifically to seniors, but there 
is a network called Campus Kitchens, which is college students 
who are taking prepared and perishable food and delivering it 
to food pantries and congregate meal sites and other places 
that need emergency food in communities. So that is one 
important place where college students are working.
    Senator McCaskill. If possible, if you would get to--we 
will follow up with you get the information about that program, 
because I think that would be something that we would want to 
try to emulate in various campuses around the country.
    We need to capture these kids and get them thinking about 
beyond where they are going for spring break as quickly as 
possible, and make sure that we turn them into the contributing 
citizens that we know they all want to be if they have the 
nudge. I would love to help participate in trying to get that 
program around.
    I thank all of you for being here today and thank you, Mr. 
Chairman, for this Committee.
    Senator Smith. Thank you, Senator McCaskill. Marcus, I 
think it goes without saying it, but I will say it anyway. I 
think Senator Wyden and I feel a great deal of pride in the 
program you have described to us of Loaves and Fishes.
    Senator McCaskill asked an important question about the 
federal government's role. I wonder if--and my own view of it 
is the federal government's role is to utilize the army of 
volunteers, not to displace it.
    For example, Loaves and Fishes, just the name is inspiring 
to me. Probably wouldn't have as good a volunteer turnout if we 
said, come and volunteer for the United States Department of 
Agriculture program. [Laughter.]
    Mr. Lampros. You are right.
    Senator Smith. Would you agree with that?
    Mr. Lampros. I would agree with that.
    Senator Smith. Okay, but clearly, you figured out for the 
great blessing of a lot of people in our largest metropolitan 
area how to get people to show up so that there are no waiting 
lists. That is astonishing. What is the key?
    Mr. Lampros. Well, we have involved a lot of corporations. 
We have over 70 companies in the Portland area that have 
volunteered to do a route, and a lot of them do one route per 
week.
    When you have a company that has 50 employees and you ask 
them to sign up, why, if you are an employee, you work 2 hours 
on a Wednesday, then you might not deliver again for 2 months. 
So it is easy, it is simple. Then we pass that on and it 
snowballs from there.
    Senator Smith. The employees of these companies, I assume, 
take a great deal of pride in doing it.
    Mr. Lampros. Absolutely.
    Senator Smith. As you look at other programs around the 
country--I assume you have some familiarity with them--do you 
share that key with them?
    Mr. Lampros. Well, I haven't been in contact with too many. 
My grandparents were recipients of Meals on Wheels in San 
Francisco, and they had to wait 6 months to get a meal 
delivered. They were on a waiting list. But no, I am not too 
familiar with any other ones but ours.
    Senator Smith. Now, you mentioned in your testimony, 45 
percent of your funding is from government sources. Obviously, 
you have got 55 percent coming form elsewhere. I assume that 
these companies that you recruit give money and their employees 
donate time.
    Mr. Lampros. Yes, they do. Actually, we have to include all 
of the recipient's money as government money. So the federal 
and local governments, only about 38 percent of what we get.
    Senator Smith. So it is primarily corporate money.
    Mr. Lampros. It is corporate money, individuals.
    Senator Smith. As you think about the growing population, 
do you all make plans for increasing the ranks of volunteers, 
or do you got nothing to spare?
    Mr. Lampros. We have never spent a cent on marketing, and I 
am on the marketing Committee, and this next year we are going 
to start actually advertising for the first time, spending 
money to get more volunteers.
    Because we realize if we get volunteers, we get money. We 
get free labor and we get donations.
    Senator Smith. I am curious, does any training go into a 
volunteer? Things, not just how to deliver a meal, but things 
to look for? Mental health issues, suicidology that they might 
detect, that kind of thing?
    Mr. Lampros. Yes, we just observe and write down what we 
see and then the case worker at the headquarters deals with it 
after that.
    But we are there. We are there for them every single day. 
So if someone is obviously disoriented or distraught about 
something, we report it. So it is a very good link to the 
community.
    Senator Smith. What are the kind of things they often bring 
back? What information does a volunteer get that they would 
pass on to a case worker?
    Mr. Lampros. Well, if someone is falling down all the time, 
that is a typical client of ours. After 20 years I have seen a 
lot of people age, and as they get closer to the nursing home 
part of their life, they do exhibit certain signs of not being 
able to stay at home. So we just observe and we report.
    Senator Smith. Is there good follow up on the reports, as 
far as you know?
    Mr. Lampros. Oh yes, very good.
    Senator Smith. Well, that is just incredibly commendable. 
James, you talk about how many of the grandparents in these 
programs are actually younger and they have their grandchildren 
living with them. They are raising them and they are likely to 
be a little bit more inclined to suffer from hunger, 
insecurities.
    What can the government do to better target that group? Or 
are we doing enough, or what would you suggest?
    Mr. Ziliak. At this point in time, no, I don't think enough 
is being done to address this population. It has been a growing 
population over the last two decades, kind of a demographic 
shift toward grandparents raising grandchildren.
    So there is some activity that the government can certainly 
be involved, but in particular, reaching out to these families 
to find out whether or not they are eligible for government 
programs, including the Food Stamp Program.
    Many of these children are from lower income families. Not 
all of them, though, by any stretch. So it is not simply an 
income constraint. There are other issues that are going on 
within the household that we still don't know the answers to.
    This is one of those results that stuck out pretty 
prominent in our study and raises a whole host of questions 
that we think need to be addressed going forward, because this 
is and has been a growing population of seniors in the United 
States.
    Senator Smith. So if you got grandparents who are food 
insecure, it obviously follows that the grandchildren would be 
in the same circumstance.
    Mr. Ziliak. That is correct.
    Senator Smith. Well, it really points out a focus that the 
Federal Government needs to have. I am not sure we have all the 
information that we ought to be getting. I think that is one of 
the things this hearing has pointed out to me. We need know a 
lot more, and then we can marshal the ways to help.
    You also indicated in your testimony that, at least as I 
heard it, the World War II generation, the greatest generation, 
those who were young during the Great Depression, there may be 
lots of resistance to getting help.
    Is there generational change, of the baby boom generation 
and that generation that we are losing far too quickly, but 
will our generation be more inclined to get the help that they 
need and to ask for involvement in the programs that are out 
there?
    Mr. Ziliak. I think there is some evidence to support that 
conjecture. The reasons vary, of course. Part of the current--
the greatest generation grew up in a very difficult time in 
United States history, the Great Depression.
    So many of these families developed coping strategies to 
deal with hunger. These were lifelong lessons that as children 
they learned and they carried on into their older ages.
    So these individuals are most likely to be much less likely 
to report that they need food, because they learned how to just 
kind of save every penny and save every scrap of bread and make 
ends meet.
    The looming retirement generation of baby boomers did not 
confront such a social dislocation like the Great Depression. 
They have also grown up in the presence of the Food Stamp 
Program. It is important to remember this program wasn't 
started until the mid-1960s, and then came in its modern form 
about 30 years ago.
    So there is much more knowledge amongst the generation of 
baby boomers of assistance programs than there was with the 
oldest old today.
    Senator Smith. James Weill, you mentioned that the problem 
that seniors who are caring for their grandchildren, you talked 
about how they face issues related to hunger. My investigative 
team is working on a report related to grandparents caring for 
grandchildren, and the problems they face ought to concern us 
all. They certainly do me.
    How do you think we could better target this group to 
address the problems that have been raised here?
    Mr. Weill. As you know, Senator, there are a growing number 
of support programs for grandparents raising grandchildren and 
efforts from groups like Generations United to do more. 
Children's groups and seniors groups like AARP have joined 
together around those. AARP has a grandparent support center. 
So there is a lot that is going on.
    In the support programs, the cash and food stamp programs, 
a lot of the outreach that we have been talking about has to be 
redoubled for those types of families.
    But also we need to focus on a range of the supports for 
the children within those families as well as the grandparents 
as caregivers. Food stamps go to the whole household, but if 
the children have no income for their other needs, no cash 
assistance, no support from refundable federal tax credits 
because the credits aren't structured the right way, it hurts 
the whole family.
    One of the things we know from the research is that parents 
and grandparents skip meals so the kids get enough to eat. So 
the heaviest burden of food insecurity, the most serious burden 
falls on the adults, because they protect the kids, although it 
doesn't work because the studies also show that the stress on 
the adults translates down to the children and hurts them in 
other ways.
    So we have to just get all of these supports to families.
    Senator Smith. I want to note for the record, or highlight 
for the record your comments and your testimony regarding the 
applications for food stamps and some of the difficulties that 
it poses and probably the discouragement that follows from 
that.
    I did not know about fingerprinting. Obviously, we don't 
want fraudulent activities in food stamps, but perhaps there is 
a less intrusive way to get the information that is needed to 
discourage fraud without making people feel criminal.
    Mr. Weill. We think there is. The Senate Farm Bill requires 
States, under standards that would be set by the Secretary, to 
ensure that finger imaging is a cost effective way before they 
use it, compared to other measures they could use.
    Senator Smith. Robert, coming from a rural part of my 
State, I obviously am very struck by what you talked about food 
deserts and it comes to my mind that if you live in a very 
small community, you may not have much access.
    But I suppose you are also referring to the likelihood that 
some urban areas where the store is a convenience store, and 
they are selling stuff that it is nutritional value is probably 
not what they need.
    Mr. Blancato. Right. In fact, the limited amount of work 
that has been done focused on both urban and rural areas. It is 
about what is available, with the emphasis on choice, cost and 
healthiness of the food.
    The growing problem in certain areas is exacerbated by 
isolation on the part of older people to go to places to begin 
with, and the cost of transportation. So this is something 
which I think this Committee could look at more and study some 
more.
    I want to make one other point, too, about grandparents 
because I am on the board of Generations United, and I know 
that there is a lot of work in this area. But there is a small 
effort under way through the Older Americans Act.
    The National Family Caregiver Support Program does set 
aside some funds for grandparents raising grandchildren. At 
least in terms of giving them information about access to 
community supports and programs, and I think that that is a 
program that was trend setting when it was established in 2000 
and needs to grow in reflection of the rising number of 
grandparents who are primarily raising their grandchildren.
    Senator Smith. Jan, I assume that your employees at 
Harrah's take the same kind of satisfaction as Marcus Lampros' 
employees do and those of other corporations. Does it add to 
the esprit de corps at Harrah's?
    Ms. Jones. It creates the culture. If employees believe 
that the company they work for is committed to doing something 
in their communities and they can be a part of that, it changes 
the way they feel about going to work.
    I think it is key to attitude and then customer service and 
just a positive esprit de corps.
    Senator Smith. Well, I suspect that the lesson there is it 
is good business to be--I doubt it costs Harrah's more of what 
puts it up in terms of dollars and involvement, I bet it gets 
that much and more back in terms of employee esprit de corps 
and customer service in your core business.
    Ms. Jones. I don't think there is any question about it.
    Senator Smith. Yes. Well, I commend you for that, and on 
behalf of the Senate Special Committee on Aging, we thank you 
all for your time. You have been generous with it, and more 
generous to those that you are concerned about and care for.
    Each of you adds measurably to, I believe, the greatness of 
our country and the real American spirit. You certainly added 
measurably to the Senate record and our understanding of this 
growing problem and awakened, I think, many to the 
responsibility we all have individually and as a country.
    So with that, our heartfelt gratitude, and we are 
adjourned.
    [Whereupon, at 12:17 p.m., the Committee was adjourned.]




























                            A P P E N D I X

                              ----------                              


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
